NO. 20-886
IN THE

Supreme Court of the United States
THELMA G. MCCOY,

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.
PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby certify that on this
third day of February 2021, I have served three (3) true copies of the Brief of
Amicus Curiae Center for Responsible Lending in Support of Petitioner by priority
mail, postage prepaid upon:
Attorneys for Petitioner
Daniel Adam Rubens
Orrick, Herrington & Sutcliffe LLP
51 W 52nd Street
New York, NY 10019
drubens@orrick.com
212-506-3679
Attorneys for Respondent
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Signed under the pains and penalties of perjury,
/s/

Rita L. Hemenway

Rita L. Hemenway
NOTARIZED BY:
/s/

George D. Bateman

George D. Bateman
My Commission Expires: May 30, 2025

